Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Willie Addison, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 10/28/2019 deponent caused to be served 3 copy(s) of the within
Opposition to Petition for Writ of Mandamus
upon the attorneys at the address below, and by the following method:
By Overnight Delivery
Richard J. Fields
Petitioner Pro Se
2830 Pitkin Avenue
Brooklyn, NY 11208
Phone: 718-235-0900

Sworn to me this
Monday, October 28, 2019
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Richard J. Fields v. Diana Palmeri
Docket/Case No: 19-410
Index:

